U.S. Department of                           The Inspector General      Office of Inspector General
Transportation                                                          Washington, D.C. 20590

Office of the Secretary
of Transportation




August 3, 2007


INFORMATION MEMORANDUM TO THE SECRETARY


From:                 Calvin L. Scovel III
                      Inspector General
                      X61959

Prepared by:          Rebecca Anne Batts
                      Acting Assistant Inspector for Surface and Maritime Programs
                      X30331

Subject:              Inspector General Audit of the National Bridge Inspection Program

________________________________________________________________________

SUMMARY

This memorandum responds to your request that the Office of Inspector General provide
an independent review of the National Bridge Inspection Program and the Federal
Highway Administration’s (FHWA) oversight of the Nation’s bridges.

BACKGROUND

Your request is significant to the Nation as it follows closely the collapse on August 1 of
the Interstate 35W Bridge, which spans the Mississippi River, sending vehicles, tons of
concrete, and twisted metal into the water. A number of people were killed or injured. I
share your concern about this collapse and wish to assist you in determining whether the
current FHWA National Bridge Inspection Program delivers the highest level of bridge
safety, in view of FHWA’s role as the lead agency for ensuring the safety of the Nation’s
system of bridges.

This bridge was part of the National Highway System and, therefore, subject to FHWA’s
National Bridge Inspection Standards (NBIS). The NBIS provides requirements
regarding the frequency of bridge inspections, qualifications of inspection personnel, and
data to be collected. In addition, FHWA is responsible for maintaining an inventory of
the Nation’s highway bridges in its Bridge Inventory database and providing oversight of
state actions to correct deficiencies.
                                                                                         2

In March 2006, we issued a report on load ratings and postings on structurally deficient
bridges on the National Highway System.              In that report, we made several
recommendations to improve FHWA’s oversight of structurally deficient bridges,
including how FHWA works with the states to address the most serious deficiencies
found during bridge inspections. We further recommended that FHWA develop a risk-
based, data-driven approach and metrics to focus its oversight efforts.

The Interstate 35W Bridge collapse raises questions about FHWA’s oversight of the
National Bridge Inspection Program and underscores the importance of vigilant oversight
of efforts to inspect and repair structurally deficient bridges. Going forward, our overall
objective is to evaluate FHWA’s implementation of the National Bridge Inspection
Program and make recommendations for improvement in order to provide assurance to
you, the Congress, and the traveling public that FHWA is doing everything that should be
done to ensure bridge safety.

Our audit work will proceed in three concurrent phases, with sequential reporting dates.
Specifically, our audit work will focus on the following efforts:

     •   An assessment of the corrective actions that FHWA has taken to address the
         recommendations we made in our March 2006 report on structurally deficient
         bridges. We plan to initiate this effort immediately and issue a report
         expeditiously.

     •   A study of the Highway Bridge Replacement and Rehabilitation Program and
         discretionary funding provided to states to correct structural deficiencies in
         bridges. We will assess the extent to which states effectively and efficiently use
         these funds to repair or replace structurally deficient bridges.

     •   A comprehensive review of FHWA’s oversight activities to ensure the safety of
         National Highway System bridges across the country. We plan to supplement
         our in-house engineering expertise with the U.S. Army Corps of Engineers and
         other experts as necessary.

FOLLOW-UP

None required.
